APPENDIX
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3304
Natalie McDaniel, Plaintiff-Appellant
v.
ROBERT WILKIE, Secretary of Department of
Veterans Affairs, Defendant-Appellee
Department of Veterans Affairs, et al, Defendants
FILED January 31. 2020
DEBORAH S. HUNT. Clerk
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF OHIO
NOT RECOMMENDED FOR PUBLICATION
ORDER
Before: Guy, GRIFFEN, and KETHLEDGE, Circuit
Judges.
Natalie A. McDaniel, a pro se Ohio litigant,
appeals the district court’s judgment dismissing her
civil suit against the Department of Veterans Affairs
(the “VA”), its Secretary, and several of its employees.
This case has been referred to a panel of the court
that, upon examination, unanimously agrees that
oral argument is not needed. See Fed. R. App. P.
34(a).
McDaniel is an African American woman who
was employed by the VA as a Veterans Service
Representative and then a Rating Veterans Service
Representative from 2007 until she resigned in July
2015. According to her amended complaint, the
(la)

2a
defendants, during her employment, “engaged in a
pattern of harassing conduct that, viewed in total,
was severe and pervasive and created a hostile work
environment.” “This pattern included inappropriate
touching, comments, subjective evaluations,
workplace sabotage, false accusations of misconduct,
failure to promote, failure to grant her reasonable
accommodation^] and the removal of the assets/tools
necessary for her to perform her job.” McDaniel
specified that “supervisors inquired whether certain
females were in a relationship with other females;
leered at [her] looking her up and down; stated that
[she] was too pretty to get a job; accused [her] of
being bad when she was young; referred to [her] as a
bitch; and stroked [her] hair.”
In December 2013, McDaniel began
teleworking from her home four days per week. She
alleged that she suffered from a disability. In June
2014, she was diagnosed with Post Traumatic Stress
Disorder, major depressive disorder, and severe
anxiety disorder, all of which she alleged “was
caused by the pattern of harassing conduct set
forth” in her pleading. Because of her diagnoses,
McDaniel requested an accommodation to telework
from her home five days per week “so that [she]
would not be exposed to the individuals that
harassed her previously and created a hostile work
environment that contributed to her disability.”
McDaniel alleged that, in July 2015, before
answering her request for accommodation, the
defendants revoked her teleworking privileges for
productivity reasons and ordered her to report to the
office five days per week. McDaniel maintains that
the proffered reason was pretextual and that the
defendants revoked her privileges in retaliation for
her complaints about the harassment she endured at
work. McDaniel resigned from her job because “her

3a
disability [made her] unable ... to work from the
office 5 days per week.” She alleged claims of race
and sex discrimination under Title VII of the Civil
Rights Act of 1964; disability discrimination for
failure to provide a reasonable accommodation, in
violation of the Rehabilitation Act of 1973; hostile
work environment, retaliation, and constructive
discharge under both statutes; and intentional
infliction of emotional distress.
The defendants moved to dismiss McDaniel’s
amended complaint, and the district court granted
it in part and denied it in part. McDaniel v.
Shulkin, No. 1:17-CV-00091, 2017 WL 4574549, *7
(N.D. Ohio Oct. 13, 2017). The district court,
dismissed all of McDaniel’s claims except those
against the Secretary of the VA for hostile work
environment, failure to accommodate her disability,
and constructive discharge.
After the parties engaged in discovery, the
Secretary of the VA moved for summary judgment.
The district court granted that motion, finding that
McDaniel could not show that she faced a hostile
work environment, that she is disabled, that the VA
failed to provide her an accommodation, or that her
working conditions were objectively intolerable, as
required to establish constructive discharge.
McDaniel v. Wilkie, No. 1:17-CV-00091, 2019 WL
626547, *4-7 (N.D. Ohio Feb. 14, 2019).
McDaniel now appeals, but she restricts her
arguments to the district court’s summary- judgment
ruling, arguing only that the court erred in
dismissing her hostile-work-environment, failure-toaccommodate, and constructive-discharge claims.
Thus, she has waived review of the district court’s
dismissal of her other claims in its motion-to-dismiss
ruling. See Grinter u. Knight, 532 F.3d 567, 574 n.4
(6th Cir. 2008). McDaniel also argues that the

4a
district court erred in not ruling on her motion to
compel discovery before the court granted summary
judgment.
We review a district court’s grant of summary
judgment de novo. Huckaby v. Priest, 636 F.3d 211,
216 (6th Cir. 2011). Summary judgment is
appropriate when “the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment -as a matter of law.”
Fed. R. Civ. P. 56(a). In resolving a motion for
summary judgment, we view the evidence in the
light most favorable to the non-moving party. See
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 587 (1986).
McDaniel first argues that the district court
erred in granting summary judgment on her hostilework-environment claim. Title VII prohibits an
employer from discriminating against an individual
“with respect to his compensation, terms, conditions,
or privileges of employment, because of such
individual’s race, color, religion, sex, nr national
origin.” 42 U.S.C. § 2000e-2(a)(l). The
Rehabilitation Act provides that “[n]o otherwise
qualified individual with a disability... shall, solely
by reason of her or his disability, be excluded from
the participation in, be denied the benefits of, or be
subjected to discrimination under any program or
activity receiving Federal financial assistance.” 29
U.S.C. § 794(a). To establish a hostile-workenvironment claim under these statutes for sex, race,
and disability discrimination, a plaintiff must prove
that: (1) she was a member of the protected class or
was disabled; (2) she faced unwelcome harassment
based on her sex, race, or disability; (3) the
harassment had the effect of unreasonably
interfering with her work performance and created
an objectively intimidating, hostile, or offensive work

5a
environment; and (4) her employer is liable. See
Warfv. U.S. Dep’t of Veterans Affairs, 713 F.3d 874,
878 (6th Cir. 201-3) (Title VII claims): Plautz u.
Potter, 156 F. App’x 812, 818 (6th Cir. 2005)
(Rehabilitation Act claims). These statutes’
prohibitions against hostile work environments
protect employees “from a ‘workplace Q permeated
with discriminatory intimidation, ridicule, and insult
that is sufficiently severe or pervasive to alter the
conditions of the victim’s employment and create an
abusive working environment.. .Barrett v.
Whirlpool Corp., 556 F.3d 502, 514 (6th Cir. 2009)
(omissions in original) (quoting Harris v. Forklift
Sys., Inc., 510 U.S. 17, 21 (1993)).
The district court noted that McDaniel alleged
that, “a few times,” her supervisor “looked at her
inappropriately and commented on her appearance,”
which she did not report to the VA. McDaniel, 2019
WL 626547, at *3. She claimed that the supervisor
“lookfed her] up and down” two different times.
McDaniel Dep. at 41. He also once made a comment
about her looks and another time about her
sexuality. The district court also noted that
McDaniel alleged that another supervisor, who was
female, “‘micromanaged’ her work, and was allegedly
hostile because ‘she was very interested in what
(McDaniel] was doing, (and] how (she] was doing it .
.. instead of taking [McDaniel’s] word for it.’” Id. at
*4. McDaniel also alleged that the female
supervisor “commented on her hair a few times and
touched her hair once,” which McDaniel believed she
did because McDaniel is biracial. Id. The district
court held that “(t]hese few, isolated incidents” did
not establish an objectively intimidating, hostile, or
offensive work environment. Id. The court further
held that, even if they did, McDaniel could not prove
that the VA knew or should have known about it

6a
because she testified that she did not report any of
the incidents to management. Id.
McDaniel argues that the district court’s
decision was erroneous. But she does not point to
record evidence that could establish that there is a
genuine dispute that she proved the third element of
a hostile-work-environment claim: that she was
harassed based on her sex, race, and disability so
much so that it unreasonably interfered with her
work performance and created an objectively
intimidating, hostile, or offensive work environment.
Even viewed in the best light for her case, the events
that McDaniel alleged do not show an environment
“that a reasonable person would find hostile or
abusive,” because ‘“simple teasing,’. . . offhand
Comments, and isolated incidents (unless extremely
serious) will not amount to” a hostile work
environment, Faragher v. City of Boca Raton, 524
U.S. 775, 787 (1998), (quoting Oncale v. Sundowner
Offshore Servs., Inc., 523 U.S. 75, 81 (1998)).
McDaniel argues that the district court failed
to apply the burden-shifting framework for
discrimination claims. See McDonnell Douglas Corp.
v. Green. 411 U.S. 792, 802 (1973). But the district
court held that McDaniel had not established a
prima facie case of hostile work discrimination,
McDaniel. 2019 WL 626547, at *3—4, and that is the
first step in the McDonnell Douglas analysis. See
Clay v. United Parcel Serv., Inc., 501 F.3d 695, 703
(6th Cir. 2007). McDaniel further asserts that the
court made credibility judgments at the summaryjudgment stage by remarking that her assertions
were unsubstantiated and that the district court
disregarded background evidence about her
workplace. But the district court’s analysis of her
claim and the record was in accordance with the
applicable standards on summary judgment. See

7a
■

Fed. R. Civ. P. 56. McDaniel also asserts that the
district court erred in finding that the VA did not
know about the allegedly hostile work
environment, pointing to a letter that her
attorney wrote to VA management in 2014. She is
correct, yet because she failed to establish that a
hostile work environment existed, proof that she
informed her employer does not save her claim. In
sum, the district court did not err in granting
summary judgment and dismissing her hostile-workenvironment claim.
McDaniel next argues that the district court
erred in denying her disability-discrimination claim
for failure to accommodate. To establish a prima
facie case of disability discrimination under the
Rehabilitation Act, a plaintiff must show that: “(1)
she is a disabled person under the Act; (2) she is
otherwise qualified; and (3) she was denied a
reasonable accommodation solely by reason of her
disability.” Peltier v. United States, 388 F.3d 984,
989 (6th Cir. 2004)
The district court determined that McDaniel
failed to point to evidence that could establish either
that she had a disability or that the VA denied her
request for an accommodation solely because of her
disability. McDaniel, 2019 WL 626547, at *4—5.
McDaniel maintains that both determinations are
erroneous. The VA, however, does not argue on
appeal that McDaniel was not disabled. Instead, the
VA maintains that it did not fail to provide a
reasonable accommodation to McDaniel because her
requested accommodation was not reasonable and
that McDaniel’s claim failed because she resigned
before the informal, interactive process for
accommodation requests concluded.
The district court ruled that McDaniel’s
proposed accommodation to telework five days a

8a
week was not reasonable because “[t]he record shows
that when the [VA] allowed [her] to telework four
days per week, her productivity decreased.” Id. at
*4. Thus, the district court held that “it was not
unreasonable for the [VA] to refuse increasing her
telework to five days per week, because there was
evidence that [she] was not ‘able to satisfactorily
perform her duties within that accommodation’
request.” Id. (citing EEOC v. Ford Motor Co., 782
F.3d 753, 763 (6th Cir. 2015) (en banc)). McDaniel
argues that her output had fallen below the required
level but that she had fully mitigated the issue. Yet,
the record evidence shows that McDaniel was
repeatedly given poor marks for her productivity.
Thus, the district court did not err in finding no
genuine dispute that McDaniel’s requested
accommodation was unreasonable. And this makes
the district court’s alternative ruling that McDaniel
failed to engage in the interactive process
unnecessary.
McDaniel next argues that the district court
erred in granting summary judgment on her
constructive-discharge claim. To the extent that
McDaniel’s constructive-discharge claim relied on the
VA having a hostile work environment, because
there is no genuine dispute that she failed to
establish the latter claim, the same holds for the
former. See Pennsylvania. State Police v. Suders,
542 U.S. 129, 147 (2004) (“A hostile-environment
constructive discharge claim entails something more:
A plaintiff who advances such a compound claim must
show working conditions so intolerable that a
reasonable person would have felt compelled to
resign.”). And to the extent that McDaniel claimed
that the denial of her accommodation request created
a constructive discharge, that too is insufficient.
‘[T]he denial of an accommodation, by itself, is not

9a
sufficient to prove that an employer constructively
discharged an employee.” Gleed v. AT & TMobility
Servs., LLC, 613 F. App’x 535,540 (6th Cir. 2015)
(citing Talley v. Family Dollar Stores of Ohio, Inc.,
542 F.3d 1099, 1109 (6th Cir. 2008)). Because
McDaniel cannot prove that her working conditions
were intolerable, the district court did not err in
denying her constructive-discharge claim. See Moore
v. KZJKA Welding Sys. & Robot Corp., 171 F.3d 1073,
1080 (6th Cir. 1999).
Finally, McDaniel argues that the district court
erred by not ruling on her motion to compel discovery
before it granted the Secretary’s motion for summary
judgment. But McDaniel does not explain how the
district court’s inaction harmed her case, and the
record shows that discovery was substantial. Thus,
the district court did not abuse its discretion in
granting summary judgment before ruling on
McDaniel’s motion to compel.
Accordingly, we AFFIRM the district court’s
judgment.

ENTERED BY ORDER OF THE COURT
s/Deborah S. Hunt
Deborah S. Hunt, Clerk

10a
UNITED STATES DISTRICT COURT NORTHERN
DISTRICT OF OHIO EASTERN DIVISION
CASE NO. 17CV91
Natalie McDaniel, Plaintiff
v.
David Shulkin, Secretary of Department of Veterans
Affairs, et al, Defendants
JUDGE DONALD C. NUGENT
MEMORANDUM OPINION AND ORDER
This matter is before the Court upon a Motion
for Summary Judgment filed by Defendant, Robert
Wilkie, Secretary of the Department of Veterans
Affairs (hereafter "Secretary Wilkie"). (ECF # 40).
Plaintiff, Natabe McDaniel (hereafter "Ms,
McDaniel") filed a Memorandum in Opposition, (ECF
#58-1), and Secretary Wilkie filed a Reply Brief on
February 11, 2019. (ECF #61). For the reasons more
fully set forth herein, Secretary Wilkie's Motion for
Summary Judgment is GRANTED.
I.

Factual and Procedural Background
Ms. McDaniel is a 39-year old, AfricanAmerican woman who was employed by the
Department of Veterans Affairs ("the Agency") from
July 2007 until she resigned on July 2, 2015. (See
ECF # 12, ,^H[7 and 15). At all times relevant herein,
Ms. McDaniel worked as a Rating Veterans Service
Representative, GS-12. Ms. McDaniel alleges that
employees at the Agency engaged in conduct,
including "inappropriate touching, comments,
subjective evaluations, workplace sabotage, false

11a
accusations of misconduct, failure to promote, failure
to grant her reasonable accommodation and the
removal of the assets/tools necessary to perform her
job," that, viewed in total, was severe and pervasive
and created a hostile work environment." (ECF #12,
HU 16-17).
In December 2013, Ms. McDaniel began
teleworking from her home 4 days per week. (ECF
#12,1f25). Ms. McDaniel alleges that in June 2014,
she was diagnosed with Post Traumatic Stress
Disorder, major depressive disorder, and severe
anxiety disorder, all of which she claims were caused
by the alleged harassing conduct during her
employment with the Agency. (ECF #12, If 19). On .
June 1, 2015, Ms. McDaniel's supervisor told her that
her productivity from home needed to improve, or he
would suspend her teleworking privileges and she
would be required to work in the office full-time. One
week later, Ms. McDaniel requested full-time
telework as an accommodation for her alleged
disability and to avoid alleged harassers and the
hostile work environment. (See ECF # 12-8, Final
Agency Decision, hereafter "FAD").
On July 1, 2015, the Agency revoked Ms.
McDaniel's teleworking privileges and ordered her to
report to work in the Agency's offices full-time
beginning on July 6, 2015. (See FAD, p. 3). Ms.
McDaniel alleges that because of her disability, she
was unable to return to full-time office work, and, on
July 2, 2015, was forced to resign from the Agency.
(See ECF #12, H27). On July 14, 2015, Ms. McDaniel
contacted an EEO Counselor within the Agency, but
the matter was not resolved. On September 1, 2015,
Ms. McDaniel filed a Formal Complaint with the
Agency, alleging she was discriminated and retaliated
against when she lost her telework privileges and that
she was subjected to harassment that created a

12a
hostile work environment. (ECF #12,, If Tf36-39). A
Final Agency Decision ("FAD") was issued on October
13, 2016, concluding that Ms. McDaniel had failed to
establish that she was subjected to discrimination.
(ECF #12-8).
On April 28, 2017, Ms. McDaniel filed her First
Amended Complaint. (ECF #12). This Court has
previously dismissed Ms. Mclzaniel's claims of race
and sex discrimination, retaliatio and emotional
distress, and has also dismissed the claims against
the Agency and the individually named Agency
employees. (See ECF #22). The surviving claims
against Secretary Wilkie1 are hostile work
environment, disability discrimination and
constructive discharge.
On October 31, 2018, Secretary Wilkie filed his
Motion for Summary Judgment, arguing that Ms.
McDaniel cannot show she was subject to a hostile
work environment, and furthermore, cannot show
that the VA knew or should have known of any
alleged harassment, (ECF #40-1, pp. 5-8), Secretary
Wilkie also argues that Ms. McDaniel has not proven
she is considered disabled under the law, nor has she
proven that the Agency failed to provide an
accommodation. (Id. at pp. 9-13). Finally, Secretary
Wilkie argues that Ms. Mcfraniel's constructive
discharge claim fails because she has not proven that
her working conditions were "objectively intolerable"
before she resigned from her employment. (Id. at pp.
13-15).
II.
Standard of Review
1 Ms. McDaniel named VA Secretary David Shulkin as a
Defendant in her Amended Complaint. Robert Wilkie is the
current Secretary of the Department of Veteran Affairs, and
therefore, pursuant to Fed. R. Civ. P. 25(d), Robert Wilkie is
automatically substituted for former Secretary David Shulkin in
this suit.

13a
Summary judgment is appropriate when the
court is satisfied "that there is no genuine issue as to
any material fact and that the moving party is
entitled to a judgment as a matter of law." Fed. R.
Civ. P. 56(a). The burden of showing the absence of
any such "genuine issue" rests with the moving party:
[A] party seeking summary judgment always
bears the initial responsibility of informing
the district court of the basis for its motion,
and identifying those portions of 'the
pleadings, depositions, answers to
interrogatories, and admissions on file,
together with affidavits, if any,' which it
believes demonstrates the absence of a genuine
issue of material fact,
CelotexCorp. v. Catrett, 477 U.S. 317, 323 (1986)
(citations omitted).
A fact is "material" only if its resolution will
affect the outcome of the lawsuit Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
Determination of whether a factual issue is
"genuine" requires consideration of the applicable
evidentiary standards. The court will view the
summary judgment motion in the fight most
favorable to the party opposing the motion Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574, 587 (1986).
Summary judgment should be granted if a
party who bears the burden of proof at trial does not
establish an essential element of their case. Tolton
v. American Biodyne, Inc., 48 F.3d 937, 941 (6th Cir.
1995) (citing Celotex, 477 U.S. at 322). Accordingly,
"[tjhe mere existence of a scintilla of evidence in
support of the plaintiff s position will be insufficient;
there must be evidence on which the jury could
reasonably find for the plaintiff." Copeland v.
Machulis, 57 F.3d 476, 479 (6th Cir. 1995) (citing

14a
Anderson, 477 U.S. at 252). Moreover, if the evidence
presented is "merely colorable" and not "significantly
probative," the court may decide the legal issue and
grant summary judgment. Anderson, 477 U.S. at 24950 (citations omitted).
In most civil cases involving summary
judgment, the court must decide "whether reasonable
jurors could find by a preponderance of the evidence
that the [non-moving party] is entitled to a verdict."
Id at 252. However, if the non-moving party faces a
heightened burden of proof, such as clear and
convincing evidence, it must show that it can produce
evidence which, if believed, will meet the higher
standard. Street v. J.C. Bradford & Co., 886 F.2d
1472, 1479 (6th Cir. 1989).
Once the moving party has satisfied its burden
of proof, the burden then shifts to the non-mover. The
non-moving party may not simply rely on its
pleadings, but must "produce evidence that results in
a conflict of material fact to be solved by a jury." Cox
v. Kentucky Dep't of Transp., 53 F.3d 146, 149 (6th
Cir. 1995). Evidence may be presented by citing to
particular parts of the record, including depositions,
documents, electronically stored information,
affidavits or declarations, stipulations (including
those made for purposes of the motion only),
admissions, interrogatory answers, or other materials.
Fed. R. Civ. P. 56(c). In lieu of presenting evidence,
Fed. R. Civ. P. 56(c) also allows that a party may
show that the opposing party's evidence does "not
establish the presence of a genuine dispute" or that
the adverse party "cannot produce admissible
evidence to support the fact."
According to Fed. R. Civ. P. 56(e),
[i]f a party fails to properly support an
assertion of fact, or fails to properly address

15a
another party's assertion of fact as required by
Rule 56(c), the court may:
(1) give an opportunity to properly support or
address the fact; (2) consider the fact
undisputed for purposes of the motion;
(3) grant summary judgment if the motion and
supporting materials - including the facts
considered undisputed - show that the movant
is entitled to it; or
(4) issue any other appropriate order
In sum, proper summary judgment analysis
entails "the threshold inquiry of determining whether
there is the need for a trial--whether, in other words,
there are any genuine factual issues that properly can
be resolved only by a finder of fact because they may
reasonably be resolved in favor of either party."
Anderson, All U.S. at 250.
III.
Analysis
A. Hostile Work Environment
Ms. McDaniel alleges that she was subject to
unwelcome physical contact and intimidation,
offensive verbal comments, workplace sabotage, false
accusations of misconduct, and threats of
unwarranted discipline from employees at the VA,
based on her gender and race. Ms. McDaniel claims
that this alleged harassment unreasonably interfered
with her work performance and created an
intimidating, hostile, and offensive environment, and
that the VA knew or should have known about the
harassment and failed to take adequate action, all in
violation of Title VII and the Rehabilitation Act of
1973, 29 U.S.C. § 701 et seq. (hereafter the
"Rehabilitation Act").
In order to establish a prima facie case of
hostile work environment harassment based on the
conduct of coworkers, a plaintiff must show that (1)
she was a member of a protected class; (2) she was

16a
subjected to unwelcome harassment; (3) the
harassment was based upon the employee's protected
status; (4) the harassment affected a term, condition
or privilege of employment; and (5) the employer
knew or should have known about the harassing
conduct but failed to take any corrective or
preventative actions. Woods v. FacilitySource, LLC,
640 Fed. Appx. 478, 490 (6th Cir. 2016).
In order to prevail, Ms. McDaniel must show
that the working environment at the Agency "was
permeated with discriminatory intimidation, ridicule,
and insult that is sufficiently severe o pervasive to
alter the conditions of her employment and create an
abusive working environment. Id; citing Harris v.
Forklift Sys., Inc., 510 U.S. 17, 21, 114 S.Ct. 367
(1993). The hostile conduct must be more than "a
mere offensive utterance," it must be severe and
pervasive to rise to the level of an objectively hostile
work environment. Ault v. Oberlin Coll., 620
F.App'x 395, 399-400 (6th Cir. 2015). Isolated
incidents, unless extremely serious, will not amount
to discriminatory changes in the terms or conditions
of employment. See Bowman v. Shawnee State Univ.,
220 F.3d 456, 463 (6th Cir. 2000).
Ms. McDaniel makes subjective and
unsubstantiated claims that a few times, her
Supervisor, Charles Moore, looked at her
inappropriately and commented on her appearance.
Ms. McDaniel did not report these alleged incidents
to the Agency, nor did any of the alleged witnesses to
the incidents. (See Ms. McDaniel Depo. pp. 36-43; 4953). Ms. McDaniel makes no claim that these
isolated events would also offend the sense of an
ordinary, reasonable person. See Harris, supra, 510
U.S. at 24. As Secretary Wilkie points out in his
Reply Brief, "Plaintiff herself acknowledges that she
relies on her own, subjective interpretation of these

17a
events." (ECF #61 p. 2 (citing to Ms. McDaniel's
deposition)).
Ms. McDaniel also complains that another
Supervisor, Vinka Lasic, ("Ms. Lasik")
"micromanaged" her work, and was allegedly hostile
because "she was very interested in what I was doing,
{and] how I was doing it.. .instead of taking my word
for it." (McDaniel Deposition at 171-72). Ms.
McDaniel alleges that Ms. Lasic also commented on
her hair a few times and touched her hair once.
These incidents occurred over the course of several
years.
These few, isolated incidents of alleged
harassment do not create a hostile work
environment, as they do not create a workplace
atmosphere that is "both objectively and subjectively
offensive." Lovelace v. BP Products North America,
252 Fed.App. 33, 41 (6th Cir. 2007). Despite
McDaniel's subjective belief that she was a victim of
workplace harassment, "the record is devoid of
competent summary judgment evidence of
discrimination that is severe or pervasive enough to
create an environment that a reasonable person
would find hostile or abusive." Wiley v. Slater, 20
F.App'x 404, 406 (6th Cir. 2001).
Even if Ms. McDaniel had proven that a hostile
work environment existed at the Agency, Ms.
McDaniel cannot prove that the Agency knew or
should have known about the alleged harassment as
required as a matter oflaw. See Woods v.
Facilitysource, LLC, 640 F. App'x 478, 490 (6th Cir.
2016). Ms. McDaniel testified she did not report any
of the alleged incidents to Agency management.
Since an employer's actual or constructive knowledge
is a prerequisite to a hostile work environment claim,
and Ms. McDaniel did not report these incidents,

18a
Secretary Wilke is entitled to judgment as a matter of
law.
B. Disability Discrimination
To establish a prima facie case of failure to
accommodate under the Americans with Disabilities
Act ("’ADA"), 42 U.S.C. § 12112(a) and the
Rehabilitation Act, Ms. McDaniel must show that (1)
she has a disability; (2) she was qualified for the
position; (3) the agency was aware of her disability; (4)
an accommodation was needed; and (5) the Agency
failed to provide then modification. Willard v. Potter,
264 Fed.Appx. 485, 487 (6th Cir. Mich. 2008)(citations
omitted). Ms. McDaniel argues that she suffered from
a disability, anxiety and depression, and that the
Agency failed to provide a reasonably accommodation
by refusing to allow her to work from home five days
per week. (ECF# 12, 11 51-61).
First, Ms. McDaniel has not sufficiently shown
that her diagnoses constituted disabilities. There is no
evidence indicating that "one or more major life
activity" was substantially limited, nor has Ms.
McDaniel explained how her anxiety and depression
have substantially limited her daily activities. See,
e.g., Penny v. UPS, 128 F.3d 408, 415 (6th Cir.
1997). A medical diagnosis alone is not enough to
demonstrate a disability under the ADA. See McNeil
u. Wayne County, 300 Fed.Appx. 358, 361 (6th Cir.
2008)(citing Toyota Motor Mfg. v. Williams, 534 U.S.
184 (2002). Similarly, merely stating a claim that
these conditions were made worse while working a the
VA is not sufficient to prove a disability. Ms.
McDaniel must prove that the condition caused an
"inability to work" under present conditions. See
Myers v. Cuyahoga Cty., 183 F.App'x 510, 516 (6th
Cir. 2006). Without such evidence, Ms. McDaniel
cannot prove she was disabled while employed with
the Agency.

19a
In addition, there is no evidence to suggest
that the Agency failed to provide a reasonable
accommodation to Ms. McDaniel. The record shows
that when the Agency allowed Ms.McDaniel to
telework four days per week, her productivity
decreased. Therefore, it was not unreasonable for the
Agency to refuse increasing her telework to five days
per week, because there was evidence that Ms.
McDaniel was not "able to satisfactorily perform her
duties within that accommodation" request. See
EEOC v. Ford Motor Co.. 782 F.3d 753, 763 (6th Cir.
2015).
Furthermore, Ms. McDaniel resigned from the
Agency before any discussion regarding other
potential reasonable accommodations. Ms. McDaniel
also admitted that she "refused to sign a medical
release" so that the Agency could request medical
information regarding her alleged disabilities. (ECF
#58-1, p. 23). When a plaintiff does not participate
in this shared "interactive process" in good faith, and
resigns while the process is ongoing, an employer
cannot be found liable of disability discrimination. See
Kleiber v. Honda of America Mfg., Inc., 420
F.Supp.2d 809 (S.D. Ohio 2006). Therefore, the
Agency cannot be found liable for failure to
accommodate Ms. McDaniel when she failed to
engage in this process to find alternative
accommodations. See deed v. AT&T Mobility
Services, LLC, 613 Fed.Appx. 535, 539 (6th Cir.
2015).
For these reasons, Ms. McDaniel's claim that
the Agency failed to provide a reasonable
accommodation fails, and Secretary Wilke is entitled
to judgment as a matter of law.
C. Constructive Discharge
Ms. McDaniel alleges that when she was told
to return to the Agency offices full-time, she was

20a
forced to resign rather than face the hostile and
intolerable working conditions.
"To constitute constructive discharge, the
employer must deliberately create intolerable
working conditions, as perceived by a reasonable
person, with the intention of forcing the employee to
quit and the employee must actually quit." Moore v.
KUKA Welding Sys. & Robot Corp., 171 F.3d I 073,
I 080 (6th Cir. 1999). When faced with similar
hostile-environment constructive discharge claims,
plaintiffs must present evidence proving not only
harassment, but they are required to show activity "so
intolerable that a reasonable person would be forced
to quit." See Pennsylvania State Police v. Suders,
542U.S. 129, 147(2004).
The allegations presented by Ms. McDaniel do
not show that anyone at the Agency acted
intentionally to make her quit. In fact, Ms. McDaniel
did not depose any employee at the Agency, and
therefore, cannot begin to address the seven factors
used to assess an employer's intent: demotion, salary
reduction, job responsibility reduction, reassignment
to less desirable work, reassignment to work under a
younger supervisor, harassment by the employer for
the purpose of forcing plaintiff to quit, or an offer to
continue working but on less favorable terms. See
Presley v. Ohio Dept, of Rehab. andCorr., 675
Fed.Appx 507, 515 (6th Cir. 2QYl)(citing Logan v.
Denny's, Inc., 259 F.3d 558, 569 (6th Cir. 2001). As
Secretary Wilkie points out, Ms. McDaniel does not
claim that her salary or benefits were ever reduced,
rather, she "merely alleges unpleasant working
conditions and the revocation of her telework
privileges, both of which are insufficient to support
her constructive discharge claim." (ECF#61, p. 7).
Moreover, Ms. McDaniel testified that any changes to
her workload and job responsibilities were primarily

21a
due to staffing considerations. (See McDaniel Dep. at
pp. 80-100).
Considering these seven factors, Ms. McDaniel
has failed to show sufficient support for her claim of
deliberate, objectively intolerable working conditions,
and therefore, her constructive discharge claim fails
as a matter of law.
IV.
Conclusion
For the reasons set forth herein, Secretary Wilkie's
Motion for Summary Judgment is
GRANTED.
IT IS SO ORDERED.
s/Donald C. Nugent
Donald C. Nugent
United States District Court
Date: February 13, 2019

22a
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO EASTERN
DIVISION
CASE NO. 1:17 CV 91
Natalie McDaniel, Plaintiff
v.
David Shulkin, Secretary of Department of Veterans
Affairs, et al, Defendants
JUDGE DONALD C. NUGENT
MEMORANDUM OPINION AND ORDER
This matter is before the Court on the Motion
to Dismiss Plaintiffs First Amended Complaint filed
by Defendants, David Shulkin, Secretary of the
Department of Veterans Affairs; the Department of
Veterans Affairs; Charles L. Moore, Jr.; Todd John
Webber; Vinka M. Lasic; and, Jessica R. Minnich.
(Docket #18.) Defendants ask the Court to dismiss
all claims raised against them by Plaintiff, Natalie
McDaniel.
I.
Factual and Procedural Background.
Ms. McDaniel is a 38-year-old, African American
woman who was employed by the Department of
Veterans Affairs (“the Agency”) from July 2007 until
she resigned on July 2, 2015. (First Amended
Complaint at Paragraph 7 and 15.) At all times
relevant, Ms. McDaniel worked as a Rating Veterans
Service Representative, GS-12. Ms. Me Daniel
alleges that during her employment with the Agency,
Defendants engaged in conduct, including
“inappropriate touching, comments, subjective
evaluations, workplace sabotage, false accusations of

23a
misconduct, failure to promote, failure to grant her
reasonable accommodation and the removal of the
assets/tools necessary to perform her job” that,
viewed in total, was severe and pervasive and
created a hostile work environment. (Id. at
Paragraphs 16-17.) Ms. McDaniel alleges that
“supervisors inquired whether certain females were
in a relationship with other females; leered at
Plaintiff looking her up and down; stated that
Plaintiff was too pretty to get a job; accused Plaintiff
of being bad when she was young; referred to
Plaintiff as a bitch; and stroked Plaintiffs hair.” (Id.
at Paragraph 17.) Ms. McDaniel alleges she
complained to the Agency that she was being subject
to a hostile work environment and filed various
grievances and complaints regarding the same. (Id.
at Paragraph 18.)
In December 2013, Ms. McDaniel began
teleworking from her home 4 days per week. (Id. at
Paragraph 25.) Ms. McDaniel states that in June
2014, she was diagnosed with Post Traumatic Stress
Disorder, major depressive disorder, and severe
anxiety disorder her alleged disability for which
she still attends therapy and all of which she claims
was caused by the alleged harassing conduct during
her employment with the Agency. (Id. at Paragraph
19.)
On June 1, 2015, Ms. McDaniel’s supervisor
told her that her productivity from home needed to
improve or he would suspend her telework privileges
and she would be required to work in the office full­
time. (Final Agency Decision at p. 3.) On June 8,
2015, Ms. McDaniel requested full-time telework as
an accommodation for her alleged disability. (First
Amended Complaint at Paragraph 22.) Ms.
McDaniel states that she communicated to
Defendants that she suffered from a disability; asked

24a
to telework 5 days per week from home so she would
not be exposed to the alleged harassers and hostile
work environment which contributed to her
disability; and, provided medical documentation to
the Agency corroborating the same. (Id. at-2
Paragraphs 22-25.)2^
Ms. McDaniel asserts that on July 1, 2015,
before a decision was made regarding the requested
accommodation, Defendants revoked her teleworking
privileges and ordered her to report to work in the
office full-time beginning July 6, 2015. (First
Amended Complaint at Paragraph 27; Final Agency
Decision at p. 3.) Ms. McDaniel alleges that because
of her disability, she was unable to return to full-time
office work on and, on July 2, 2015, was forced to
resign due to the revocation of her teleworking
privileges. (First Amended Complaint at Paragraph
35.)
Ms. McDaniel alleges Defendants “maliciously
engaged in a pattern of harassment that included the
adverse action of revoking her teleworking privileges
due to alleged productivity issues prior to concluding
the interactive process” because she had previously
complained about the alleged harassment and hostile
work environment; requested an accommodation for
her disability; and, filed grievances and complaints.
(Id. at Paragraph 27.) Ms. McDaniel asserts that the
decision to revoke her teleworking privileges was
arbitrary; not consistent with the past practices of
the Agency; and, that the Agency’s proffered reasons
2 The Final Agency Decision states that Ms. McDaniel did not
provide sufficient documentation from a medical provider
regarding her functional limitations or the need to telework
and that the Agency requested Ms. McDaniel sign a limited
release of medical information, but she refused. (Final
Agency Decision at p. 10.)

25a
were a pretext for harassment and retaliatory
conduct designed to force her to resign. (Id. at
Paragraphs 28 and 29.) Ms. McDaniel alleges that
Defendants’ revocation of her teleworking privileges
and rejection of her request for an interim
accommodation demonstrate that they were
disinterested in addressing her request for an
accommodation and that Defendants failed to
participate in the interactive process-in good faith.
(Id. at Paragraph 33.)
On July 14, 2015, Ms. McDaniel contacted an
EEO Counselor with the Agency’s Office of
Resolution Management. (Id. at Paragraph 36.)
Informal counseling failed to resolve the matter and,
on September 1, 2015, Ms. McDaniel filed a Formal
Complaint with the Agency. The EEO Office
investigated Ms. McDaniel’s claims that she was
discriminated and retaliated against when she lost
her telework privileges and that she was subject to
harassment that created a hostile work environment.
(Id. at Paragraphs 37-39.) A Final Agency Decision
was issued on October 13, 2016, concluding that Ms.
McDaniel had not established she was subject to
discrimination. (Docket #18, Exhibit 2.)
On January 12, 2017, Ms. McDaniel filed her
Complaint in this Court against Defendants. On
April 28, 2017, Ms. McDaniel filed her First
Amended Complaint. (Docket #12.) Ms. McDaniel
raises claims for Race and Sex Discrimination (First
Cause of Action); Hostile Work Environment (Second
Cause of Action); Violation of the Rehabilitation Act
(Third Cause of Action); Retaliation (Fourth Cause of
Action); Emotional Distress (Fifth Cause of Action);
and, Constructive Discharge (Sixth Cause of Action),
On May 30, 2017, Defendants filed their
Motion to Dismiss pursuant to Fed. R. Civ. P.
12(b)(1) and 12(b)(6). (Docket #18.) Defendants

26a
argue that the individually named Defendants and
the “Department of Veterans Affairs” are not proper
parties to an employment discrimination action and
should be dismissed. Further, Defendants argue that
the Ms. McDaniel’s emotional distress claim is
preempted by the Federal Employee Compensation
Act and barred by the failure to exhaust her
administrative remedies; that Ms. McDaniel’s
constructive discharge claim is barred by the failure
to exhaust her administrative remedies; and, that
Ms. McDaniel has failed to alleged facts sufficient to
support her claims for disparate treatment, hostile
work environment, retaliation and the failure to
accommodate arising under Title VII and/or the
Rehabilitation Act. On June 29, 2017, Ms. McDaniel
filed her Memorandum in Opposition and on July 13,
2017, Defendants filed their Reply Brief. (Docket
#19.)
Standard of Review
II.
A motion to dismiss under Federal Rules of
Civil Procedure 12(b)(1) and 12(b)(6) allows a
defendant to test the legal sufficiency of a complaint,
in this case whether the Court has subject matter
jurisdiction over the claims raised by Plaintiffs,
without being subject to discovery. See Yuhasz v.
Brush Wellman, Inc., 341 F.3d 559, 566 (6“* Cir.
Ohio 2003). In evaluating the motion to dismiss, the
court must construe the complaint in the light most
favorable to plaintiffs, accept its factual allegations
as true, and draw reasonable inferences in favor of
the plaintiffs. See Directv, Inc. v. Treesh, 487 F.3d
471, 476 (6th Cir. Ky. 2007).
Where the Defendant asks the Court to
dismiss the Plaintiffs claims for lack of subject
matter jurisdiction pursuant to Rule 12(b)(1), the
Court need only determine whether it has
jurisdiction over the Plaintiffs claims. The Sixth

27a
Circuit has adopted two standards of dismissal under
Rule 12(b)(1), depending upon whether the movant
makes a facial or factual attack on the Plaintiff's
Complaint. See Ohio Nat 'l Life Ins. Co. v. United
States, 922 F.2d 320, 325 (6th Cir. Ohio 1990). A
facial attack merely questions the sufficiency of the
pleadings. In reviewing a facial attack, the Court
must apply the same standard applicable to Rule
12(b)(6) motions. On the other hand, where a District
Court reviews a Plaintiffs Complaint under a factual
attack, the Court does not presume that the
Plaintiffs allegations are true. In such cases, the
Court has wide discretion to allow affidavits,
documents, and even a limited evidentiary hearing to
resolve disputed jurisdictional facts. See Id.; see also
Tennessee Protection & Advocacy, Inc. v. Board of
Educ., 24 F. Supp. 2d 808, 812-13 (M.D. Tenn. 1998).
The instant Motion involves both facial and factual
attacks on the sufficiency of the Complaint.
A motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6) allows a defendant to test
the legal sufficiency of a complaint without being
subject to discovery. See Yuhasz v. Brush Wellman,
Inc., 341 F.3d 559, 566 (6th Cir. Ohio 2003). In
evaluating a motion to dismiss, the court must
construe the complaint in the light most favorable to
the plaintiff, accept its factual allegations as true,
and draw reasonable inferences in favorable of the
plaintiff. See Directv, Inc. v. Treesh, 487 F.3d 471,
476 (6th Cir. Ky. 2007). The court will not, however,
accept conclusions of law or unwarranted inferences
cast in the form of factual allegations. See Gregory v,
Shelby County, 220 F.3d 433, 446 (6™1 Cir. Tenn.
2000).
In order to survive a motion to dismiss, a
complaint must provide the grounds of the
entitlement to relief, which requires more than

28a
labels, conclusions, and a formulaic recitation of the
elements of a cause of action. See Bell Atl, Corp. v.
Twombly, 127 S. Ct. 1955, 1964-65 (2007). That is,
“[factual allegations must be enough to raise a right
to relief above the speculative level, on the
assumption that all the allegations in the complaint
are true (even if doubtful in fact).” Id. (internal
citation omitted); see Ass’n of Cleveland Fire Fighters
v. City of Cleveland, 502 F.3d 545 548, at *2 (6™1 Cir.
Ohio Sept. 25, 2007) (recognizing that the Supreme
Court “disavowed the oft-quoted Rule 12(b)(6)
standard of Conley v. Gibson, 355 U.S. 41, 45-46, 78
S. Ct. 99, 2 L. Ed.2d 80 (1957)”). Accordingly, the
claims set forth in a complaint must be plausible,
rather than conceivable. See Twombly, 127 S. Ct. at
1974.
On a motion brought under Rule 12(b)(6), the
court’s inquiry is limited to the content of the
complaint, although matters of public record, orders,
items appearing in the record of the case, and
exhibits attached to the complaint may also be taken
into account. See Amini v. Oberlin College, 259 F.3d
493, 502 (6*^ Cir. Ohio 2001). It is with this
standard in mind that the instant Motion must be
decided.
III.
Discussion
A.
Individual Defendants and the
Department.
Ms. McDaniel’s claims against individual
Defendants, Charles L. Moore, Jr.; Todd John Weber;
Vinka M. Lasic; Jessica R. Minnich; and, the
Department of Veterans Affairs fail as a matter of
law. Ms. McDaniel raises no specific allegations
regarding any individual Defendant; said Defendants
are not proper Parties under Title VII or the
Rehabilitation Act; and, as set forth below, this Court
does not have subject matter jurisdiction over Ms.

29a
McDaniel’s intentional infliction of emotional
distress claim. 42 U.S.C. § 20Q0e-16(c); Hancock v.
Eggers, 848 F.2d 87, 88-89 (6th Cir. Mich. 1988).
Accordingly, Ms. McDaniel’s First through Six
Causes of Action against individual Defendants,
Charles L. Moore, Jr.; Todd John Weber; Vinka M.
Lasic; Jessica R. Minnich; and, the Department of
Veterans Affairs, are hereby DISMISSED WITH
PREJUDICE.
B.
Analysis of Individual Claims.
The only remaining Defendant in this case is
the Secretary of the Department of Veterans Affairs,
David Shulkin.
Race/Sex Discrimination.
In her First Cause of Action, Ms. McDaniel
alleges she was subjected to different terms and
conditions of employment than her male and/or white
counterparts, in violation of Title VII. of the Civil
Rights Act of 1964, 42 U.S.C. § 2000e, et seq. In
order to establish a prima facie case under Title VII
for disparate treatment, Ms. McDaniel must show
that she was (1) a member of a protected class; (2)
subject to an adverse employment action; (3) she was
qualified for the position; and, (4) similarly situated
employees outside the protected class were treated
more favorably. Clayton v. Meijer, 281 F.3d 605, 609
(6th Cir. Mich. 2002).
Ms. McDaniel alleges that she was denied a
reasonable accommodation; required to return to
work while her request for an accommodation was
pending; stripped of the tools/assets necessary to
perform her job; and, evaluated under subjective
criteria. However, there are no facts alleged in the
First Amended Complaint that establish or suggest
that male and/or white similarly situated employees
were treated more favorably. Accordingly, Ms.
McDaniel has failed to satisfy a prima facie case of

30a
race/sex discrimination under Title VII and
Defendants’ Motion to Dismiss is hereby granted as
to Ms. McDaniel’s First Cause of Action.
Hostile Work Environment
Ms. McDaniel asserts that she was subject to
unwelcome physical contact and intimidation,
offensive verbal comments, workplace sabotage, false
accusations of misconduct, and threats of unwanted
discipline from Defendants, based on her gender and
race; that the alleged harassment unreasonably
interfered with her work performance and created an
intimidating, hostile, and offensive environment;
and, that Defendants knew or should have known
that Ms. McDaniel was being harassed and failed to
take adequate action, all in violation of Title VII and
the Rehabilitation Act of 1973, 29 U.S.C. § 701 et seq.
In order to establish a prima facie case for hostile
work environment harassment based on the conduct
of coworkers, a plaintiff must show that (1) she was a
member of a protected class; (2) she was subjected to
unwelcome harassment; (3) the harassment was
based upon the employee’s protected status; (4) the
harassment affected a term, condition or privilege of
employment; and, (5) the employer knew or should
have known about the harassing conduct but failed to
take any corrective or preventive actions. Woods v.
FacilitySource, LLC, 640 Fed. Appx. 478, 490 (6^
Cir. 2016).
Ms. McDaniel has sufficiently pled a claim for
hostile work environment harassment. Accordingly,
Defendants Motion to Dismiss is hereby denied as to
Ms. McDaniel’s Second Cause of Action.
Rehabilitation Act
Ms. McDaniel alleges she suffered from a
disability “that was significantly cause by Defendants
[sic] pattern of hostile harassing that included
unwelcome physical contact and intimidation,

31a
offensive verbal comments, workplace sabotage, false
accusations of misconduct, and threats of
unwarranted discipline that prevented her from
continuing to work;” that she was otherwise qualified
to perform the essential functions of her job; that
Defendants were aware of her disability and could
have easily accommodated her needs by permitting
her to telework; that Defendants did not, in good
faith, enter into the “interactive process” with Ms.
McDaniel or provide a reasonable accommodation;
and, that Defendants discriminated against her by
denying her reasonable accommodation for her
disabilities, in violation of the Rehabilitation Act of
1973, 29 U.S.C. § 701 et seq.
"Claims brought under the Rehabilitation Act
are generally reviewed under the same standards
that govern ADA claims." Shaikh v. Lincoln Mem,
Univ., 608 F. App'x 349, 353 (6“* Cir. Tenn. 2015)
(citing Jakubowski v. Christ Hosp., Inc., 627 F.3d
195, 201 (6^ Cir. Ohio 2010)). To establish a prima
facie case of failure to accommodate under the
Rehabilitation Act, a plaintiff must show that (1) she
has a disability; (2) she was qualified for the position;
(3) the agency was aware of her disability; (4) an
accommodation was needed, "i.e., a causal
relationship existed between the disability and the
request for accommodation;" and, (5) the agency
failed to provide the accommodation. Gaines v.
Runyon, 107 F.3d 1171, 1175 (6th Cir. Ky. 1997).
As alleged by Ms. McDaniel, the Agency
required Ms. McDaniel stop teleworking and return
to work even though it knew of her alleged
disability and the alleged hostile work environment
that caused and/or exacerbated her disability prior
to making a decision on her accommodation, which
she claims forced her resignation. While there are
questions regarding the nature of the alleged hostile

32a
work environment, Ms. McDaniel’s disability, Ms.
McDaniel’s performance, whether medical
documentation requested by the Agency was provided
by Ms. McDaniel and, the Agency’s response to Ms.
McDaniel’s request for an accommodation, Ms.
McDaniel has sufficiently pled a prima facie case for
failure to accommodate under the Rehabilitation Act.
Accordingly, Defendants are not entitled to dismissal
of Ms. McDaniel’s Third Cause of Action.
Retaliation
Ms. McDaniel alleges Defendants intentionally
and maliciously retaliated against her for reporting
the alleged severe and pervasive hostile environment
that existed at her workplace; for requesting a
reasonable accommodation for her disability; and,
that she was treated differently than comparable
employees who did not complain of the hostile
environment, request an accommodation, or file a
grievance, all in violation of Title VII and the
Rehabilitation Act. To establish a prima facie case of
retaliation, a plaintiff must show that: (1) she
engaged in protected activity; (2) her employer was
aware of the protected activity; (3) she suffered an
adverse employment action; and (4) there was a
causal connection between the protected activity and
the adverse employment action. Imwalle v. Reliance
Med. Prods., 515 F.3d 531, 544 (6th Cir. Ohio 2008).
Ms. McDaniel has failed to sufficiently allege a
causal connection between the alleged protected
activities and the alleged adverse employment action.
As set forth in the First Amended Complaint, Ms.
McDaniel complained about her work environment in
June 2014, but her telework privileges were not
withdrawn for over a year; Ms. McDaniel does not
dispute that she asked for an accommodation after
Defendants told her that her telework privileges may
be revoked; and, there are no other facts pled which

33a
support a claim that Ms. McDaniel was retaliated
against for complaining about a hostile work
environment, requesting an accommodation or filing
a grievance. Accordingly, under the Twombly
standard, Defendants are entitled to dismissal of Ms.
McDaniel’s retaliation claim, her Fourth Cause of
Action.
Intentional Infliction of Emotional Distress.
The Federal Employee Compensation Act
(“FECA”), 5 U.S.C. § 8102, provides a comprehensive
administrative scheme for federal employees to
recover if injured while performing their employment
duties. “Intentional infliction of emotional distress
claims raised by federal employees, regardless of
whether they are brought under state tort law or the
FTCA [Federal Tort Claims Act], fall within the
purview of FECA and therefore are preempted by the
statute.” Batuyong v. Sec'y of DOD, Case No. 1:07
CV 944, 2008 U.S. Dist. LEXIS 7967, *26-27 (N.D.
Ohio Feb. 4, 2008)(citing Saltsman v. United States,
104 F.3d 787, 790 (6th Cir. Ky. 1997); Lockett v.
Potter, 2007 U.S. Dist. LEXIS 9867, 2007 WL 496361,
at *1-2 (N.D. Ohio 2007)). “The fact that the
Plaintiffs emotional distress claim arises in an
employment discrimination context does not render
the claim beyond FECA's coverage.” Id. (citing
Figueroa v. U.S. Postal Service, 422 F. Supp. 2d 866,
878 (N.D. Ohio 2006) (noting that the "Sixth Circuit
has made clear that FECA provides the only remedy
for an employee disabled by work-related stress.. .
Accordingly, mental distress FTCA claims predicated
on a supervisor’s workplace conduct are preempted
by FECA") (internal citations omitted)). Accordingly,
this Court lacks subject matter jurisdiction over Ms.
McDaniel's emotional distress claim and her Fifth
Cause of Action is dismissed without prejudice.
Constructive Discharge.

34a
Ms. McDaniel alleges that she was subject to
constant and extreme harassing conduct by
Defendants creating a hostile work environment and
contributing to her disability; that she complained to
Defendants regarding the same; that despite her
complaints, Defendants did nothing to remedy the
hostile work environment; and, that Defendants
ordered her to return to working conditions so
intolerable that she was forced to resign from her
employment. Defendants argue Ms. McDaniel failed
to raise her Constructive Discharge claim with the
EEOC and, therefore, that she is barred from raising
it in this Court.
The failure to explicitly state a potential claim
in an EEOC complaint does not always equate to a
failure to exhaust administrative remedies with
respect to that claim. Dixon v. Ashcroft, 392 F.3d
212, 217 (6™ Cir. Mich. 2004). The exhaustion
requirement “is not meant to be overly rigid, nor
should it ‘result in the restriction of subsequent
complaints based on procedural technicalities or the
failure of the charges to contain the exact wording
which might be required in a judicial pleading.’...
As a result, the EEOC complaint should be liberally
construed to encompass all claims ‘reasonably
expected to grow out of the charge of discrimination.’"
Randolph v.Ohio Dep't of Youth Servs., 453 F.3d
724, 732 (6^ Cir. Ohio 2006)(quoting EEOC v.
McCall Printing Co., 633 F.2d 1232, 1235 (6^ Cir.
Ohio 1980); Haithcock v. Frank, 958 F.2d 671, 675
(6^ Cir. Ohio 1992)). Furthermore, a plaintiff will
not be barred from raising an uncharged claim in
court simply because the EEOC failed to investigate
an uncharged claim that reasonably grew out of
claims in the complaint. Dixon. 392 F.3d at 219.
Based on the language of the Final Agency
Decision, Ms. McDaniel’s constructive discharge

35a
claim could reasonably expected to grow out of the
charge of discrimination. Accordingly, Ms. McDaniel
is not barred from raising her constructive discharge
claim before this Court.
"To constitute constructive discharge, the
employer must deliberately create intolerable
working conditions, as perceived by a reasonable
person, with the intention of forcing the employee to
quit and the employee must actually quit." Moore v.
KUKA Welding Sys. & Robot Corp., 171 F.3d 1073,
1080 (6“* Cir. Mich. 1999) (discussing the issue in
the context of Title VII). Ms. McDaniel claims
Defendants withdrew here telework privileges,
knowing she was unable to return to work in the
office due to her disability which was caused and/or
exacerbated by a hostile work environment of which
Defendants had knowledge, so she had no choice but
to resign. Based on the allegations set forth in the
First Amended Complaint. Ms. McDaniel has
sufficiently pled a claim for constructive discharge
and Defendants’ Motion to Dismiss is denied as to
Ms. McDaniel’s Sixth Cause of Action.
IV.
Conclusion
For the reasons stated above, the Motion to
Dismiss filed the Defendants is hereby
GRANTED IN PART AND DENIED IN PART.
All of Ms. McDaniel’s claims against individual
Defendants, Charles L. Moore, Jr.; Todd John Weber;
Vinka M. Lasic; Jessica R. Minnich; and, the
Department of Veterans Affairs are hereby
DISMISSED WITH PREJUDICE. The only
remaining Defendant is the Secretary of the
Department of Veterans Affairs, David Shulkin.
Ms. McDaniel’s First and Fifth Causes of
Action are hereby DISMISSED WITH PREJUDICE.
Ms. McDaniel’s Fourth Cause of Action is
hereby DISMISSED WITHOUT PREJUDICE.

36a
Defendants’ Motion to Dismiss is hereby
DENIED as to Ms. McDaniel’s Second, Third, and
Sixth Causes of Action.
IT IS SO ORDERED.
s/Donald C. Nugent
DONALD C. NUGENT
Senior United States District Judge
DATED: October 13, 2017

37a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3304
Natalie McDaniel, Plaintiff-Appellant
v.
ROBERT Wilkie, Secretary of Department of
Veterans Affairs, Defendant-Appellee
Department of Veterans Affairs, et al, Defendants
FILED April 15. 2020
DEBORAH S, HUNT. Clerk
ORDER
Before: Guy, GRIFFEN, and KETHLEDGE, Circuit
Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in
the petition were fully considered upon the original
submission and decision of the case. The petition
then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT
s/Deborah S. Hunt
Deborah S. Hunt, Clerk

